If you want to report or discuss confidentially
any instance of misconduct, fraud, waste, abuse,
      or mismanagement, please contact the
          Office of Inspector General.

                  Telephone:
       The Inspector General’s HOTLINE
                1-800-303-9737

      For deaf or hard of hearing, dial:
       FRS (800)877-8339 and give the
    Hotline number to the relay operator.

                       Web:
 http://oig.pbgc.gov/investigation/details.html

                  Or Write:
    Pension Benefit Guaranty Corporation
         Office of Inspector General
                PO Box 34177
         Washington, DC 20043-4177
                              Pension Benefit Guaranty Corporation
                                                              Office of Inspector General
                                                1200 K Street, NW, Washington, DC 20005-4026


										                                                                     October 31, 2008

The Board of Directors
Pension Benefit Guaranty Corporation


I am submitting the Office of Inspector General’s Semiannual Report to Congress, as required by the
Inspector General Act of 1978, as amended. The report summarizes accomplishments for the period
April 1, 2008 through September 30, 2008. The Act requires that you transmit this report, along
with the management report prepared by the Pension Benefit Guaranty Corporation (PBGC), to the
appropriate congressional committees by November 30, 2008.

During this semiannual period, significant work completed by the Office of Inspector General
(OIG) includes audits addressing PBGC’s contracting activities, a review of PBGC’s mass transit and
subsidized parking programs, and the evaluation of PBGC information security as required by the
Federal Information Security Management Act (FISMA) of 2002. Other important work included
investigations of diverse topics such as a pension recipient who went missing amid suspicion of
foul play, an individual who falsely claimed to be an enrolled actuary and certified the forms used
for important decisions about terminating pension plans, and a PBGC employee who forged a
supervisor’s signature. Ongoing significant activities include our audit of the implementation of
PBGC’s new investment policy and the annual audit of PBGC’s financial statements, as required by the
Chief Financial Officers’ Act of 1990.

This work supports the mission embodied in the Inspector General Act; it also supports OIG’s vision of
being a primary source of objective and independent information for our stakeholders’ key decisions.
I congratulate my staff members on their dedication, innovation, and commitment to excellence.

On a personal note, I commend the important contributions of Luther Atkins, our Assistant Inspector
General for Audits, who retired from Federal service on October 31. His entire 37-year career in the
accountability community, first in GAO and then in various OIGs, demonstrates his commitment
to improving government. We awarded Luther the OIG’s first Extraordinary Achievement Award in
recognition of his contributions to excellent government.

We appreciate the cooperation you, your staffs and the PBGC management team have provided to the
OIG. We look forward to continuing our tradition of providing quality service to PBGC, the Board, and
the American worker.

Sincerely,




Rebecca Anne Batts
Inspector General
Table of Contents
Letter to the Board of Directors


Executive Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	      The Pension Benefit Guaranty Corporation
	      The Office of Inspector General

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
	      Governance
	      Stewardship
	      PBGC Business Model
	      Information Technology
	      Procurement and Contracting
	
Other OIG Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .18
	      Access to Information
	      Management Decisions

Other Office of Inspector General Activities  . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .19
	      Review of Proposed Statutory and Regulatory Changes
	      Inspector General Reform Act of 2008
       Assistance to Other Federal Entities
       Other Activities
	
Appendix  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .21
	      Cross-Reference to Reporting Requirements of the Inspector General Act
	      Results of Reports Issued
	      Summary of Reports Older Than 6 Months for Which Management
          Decision Has Not Been Achieved
	      Significant Problems, Deficiencies and Recommendations
	      Summary of Investigative Activities




                                          Semiannual Report Of The Inspector General—September 2008                                        iii
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments of
the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General (OIG) for
the period April 1, 2008 through September 30, 2008. In order to achieve our mission
under the Inspector General Act, we must continually evaluate major challenges and
issues in order to identify vulnerabilities to fraud, abuse, and inefficient and ineffective
activities. During the past six months, we focused on issues that PBGC is facing and will
face over the next several years. Communicating our results to the Board, the Director,
and to Congress through this report helps us achieve our vision of being a primary
source of timely and objective information about PBGC.

We have designated five areas as PBGC’s management challenges: Governance,
Stewardship, PBGC’s Business Model, Information Technology, and Procurement and
Contracting. Significant audit and investigative activity during this period includes:
• Governance— We initiated an audit of PBGC’s implementation of its new investment
policy. Our objectives are to (1) identify the strengths and weaknesses of PBGC’s
approach to execution and (2) determine the effectiveness of PBGC’s plans to identify
and manage key risks that could affect investment performance or limit anticipated
benefits. (See pages 5 -7).
• Stewardship— We investigated cases relating to the stewardship of PBGC assets,
including a daughter who had been receiving her missing father’s benefits since 1993,
a private sector actuary who falsely represented his professional status when certifying
key documents, and an employee who forged his supervisor’s signature. We also
assisted PBGC in recovering a misdirected premium check. In addition, we continued
our focus on the annual financial statement audit and assisted in developing new audit
followup guidance for PBGC. (See pages 7 – 10).
• PBGC’s Business Model— We continued our series of audits of terminated
multiemployer plans which have administrative costs that are disproportionate to
the benefits paid. We issued an audit of PBGC’s mass transit benefits and subsidized
parking and made recommendations to correct internal control issues that could allow
abuse. (See pages 10 – 13).
• Information Technology — In compliance with the Federal Information Security
Act (FISMA), we conducted security reviews and other audits and evaluations of
the effectiveness of PBGC’s information security program. Current PBGC leadership
has worked to correct previously reported issues and to develop a comprehensive
information assurance program. While PBGC’s implementation effort will take time,
OIG will continue to perform independent audits and evaluations to assist PBGC in
improving its security program. (See pages 13 – 14).
• Procurement and Contracting— We issued a series of incurred cost audits that
reported concerns such as PBGC contractors whose employees failed to meet minimum
education and experience requirements and issues with the integrity of contractor
timekeeping. An investigation disclosed that an employee had exceeded her authority
and made an unauthorized commitment of funds. (See pages 14-17).

The Appendix to this report presents statistical information about OIG audits and
investigations and a cross-reference to the reporting requirements of the Inspector
General Act.


                             Semiannual Report Of The Inspector General—September 2008         1
    THIS PAGE LEFT BLANK INTENTIONALLY




2   PBGC Office of inspector general
Introduction
The Pension Benefit Guaranty Corporation
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly owned Federal government
corporation to administer the pension insurance program. ERISA requires that PBGC: (1)
encourage the continuation and maintenance of voluntary private pension plans,
(2) provide for the timely and uninterrupted payment of pension benefits to participants
and beneficiaries, and (3) maintain premiums at the lowest level consistent with carrying
out PBGC’s obligations.

For about 44 million Americans, PBGC provides assurance that their retirement benefits
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
defined benefit pension plans (i.e., plans that promise to pay definitely determinable
retirement benefits). Such defined benefit pension plans may be sponsored individually
or jointly by employers and unions. PBGC is now responsible for the pensions of about 1.3
million people.

PBGC manages about $63 billion in assets and pays about $360 million a month to about
600,000 current retirees. Despite significant deficits in both the single-employer and
multiemployer programs, the Corporation has sufficient liquidity to meet its obligations
for a number of years. However, neither program at present has the resources to satisfy
all of the benefit obligations already incurred, much less future obligations likely to be
assumed.

                                                                                                    OIG provides an
The Office of Inspector General
                                                                                                     objective and
Our Office of Inspector General (OIG) was created under the 1988 amendments to the
Inspector General Act of 1978. We provide an independent and objective voice that helps            independent voice.
the Congress, the Board of Directors, and PBGC protect the pension benefits of American
workers by promoting positive change, accountability, and integrity. With twenty-two
staff, the OIG conducts agency audits, inspections and investigations; participates in
agency-wide working groups; and consults with our stakeholders to provide information
they need to make decisions. We are committed to our values of respect, excellence, and
integrity in all we do.

To provide value, we focus our work on the challenges facing PBGC. Each year, we assess
risk in terms of materiality, impact on operations, and potential for adverse publicity for
the Corporation. Based on this risk assessment, we identify the most important challenges
on which to focus our work. The OIG follows the standards contained in the Quality
Standards for Federal Offices of Inspector General, published by the President’s Council
on Integrity and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency
(ECIE), which incorporate Generally Accepted Government Auditing Standards, issued by
the Government Accountability Office (GAO). Our investigations comply with PCIE and ECIE
Quality Standards for Investigations.

Our staff consists primarily of auditors and criminal investigators, and includes an
independent legal counsel.
                            Semiannual Report Of The Inspector General—September 2008          3
       THIS PAGE LEFT BLANK INTENTIONALLY




4   PBGC Office of inspector general
Management Challenges
PBGC faces the challenge of dealing with the financial turmoil that is affecting much
of the American investment community. PBGC states it has the resources to meet
its commitments to America’s retirees for many years to come, although the current
turbulence in our economy will mean a challenging environment in 2009.

PBGC is taking action to address some of the external factors that create new challenges
and opportunities. The Corporation recently adopted a new investment strategy, which
will diversify its portfolio and increase its investment in stocks and in alternative asset
classes. It continues to implement higher premium rates and other changes required by
the Pension Protection Act of 2006 and the Deficit Reduction Act of 2005.                      We identified PBGC’s top

OIG has a goal of conducting audit and investigative work in each of PBGC’s                    Management Challenges:
management challenge areas -- Governance, Stewardship, PBGC’s Business Model,                  • Governance
Information Technology, and Procurement and Contracting. The results of our efforts in
each of these areas are detailed below.                                                        • Stewardship

                                                                                               • Business Model

1.	     Governance                                                                             • Information Technology

                                                                                               • Procurement
PBGC’s governance structure comprises the Board of Directors, their Board
Representatives, a Presidentially-appointed Director, and Congressional oversight. Other
elements of governance include PBGC’s system of internal control, its clearly articulated
authority to act, and the policies and procedures under which PBGC operates. PBGC
governance is complex and requires those who are charged with its oversight to view
the Corporation from a number of differing perspectives. Oversight of PBGC’s financial
operations and financial reporting by the Board of Directors, PBGC management and the
OIG is critical to effective corporate governance. Equally important is the ethical tone set
by PBGC leaders.

PBGC’s New Investment Policy

In February 2008, PBGC’s Board of Directors adopted a new investment policy that
represented a significant change in direction. Under the new policy, PBGC will invest
45 percent of its funds in fixed income securities (U.S. government securities, corporate
bonds, high yield bonds, and emerging market debt) and increase its equity investments
(US equities, non-US equities in developed markets, and emerging market equities) to
45 percent. The remaining 10 percent of investments will be in alternative investments,
specifically private real estate and private equities. Previously, the investment policy
directed PBGC to invest about 75 percent of its invested funds in fixed income securities
(U.S. government securities issued by the U.S. Department of the Treasury and corporate
bonds) and about 25 percent of its funds in private sector equities.




                            Semiannual Report Of The Inspector General—September 2008          5
                                                                Change in Asset Allocation -- Old Policy versus New Policy
                                                                                        (amounts in billions)
                                                        $40.0
                                                                             $36.3

                                                        $35.0




                                  Dollars of Holdings
                                                        $30.0




                                                        $25.0
                                                                                                                $21.8      $21.8

                                                        $20.0




                                                        $15.0
                                                                   $12.1

                                                        $10.0


                                                                                                                                     $4.8
                                                         $5.0




                                                         $0.0


                                                                           Old Policy                                   New Policy


                                                                Equities             Fixed Income               Alternative Investments


                           Note: The data comes from Investments reported as of September 30, 2008 by PBGC. Under “Old Policy” we show the actual amounts
                           reported in PBGC’s portfolio. Under “New Policy” we show how the investment allocation may appear once the new investment
                           policy is instituted. The investment policy’s target allocation consist of 3 major categories: I.) Equities - includes U.S. equities,
PBGC is implementing       developed market equities and emerging market equities, II. ) Fixed Income - includes long-term corporate and treasury bonds, high
                           yield fixed income and emerging market debt, and III. ) Alternative investments - includes private real estate and private equity
 its new investment        (buyout and venture).

       policy.
                           Since the adoption of this policy change, PBGC has taken many actions to implement
                           the new investment policy. These actions include contracting for investment
                           consultants, investment managers, and a new strategic partnership. These are
                           the first steps in PBGC’s shift of about $20 billion into new asset classes. PBGC’s
                           new investment policy calls for investments in international equity, private equity,
                           real estate, emerging market equity and debt, and high yield debt. Further, PBGC
                           is implementing its new policy at a time of unprecedented market volatility and
                           unanticipated financial institution failures.

                           The Board’s oversight during this transition is particularly critical in light of these
                           financial uncertainties. In a report issued in July, GAO concluded that the Board needs
                           to make improvements in the way it monitors PBGC progress in achieving investment
                           policy goals. GAO noted that it did not review the implementation process because
                           it had only recently been adopted and PBGC “had not yet devised its strategy for
                           implementing the changes.” (PBGC Assets: Implementation of New Investment Policy will
                           Need Stronger Board Oversight, GAO-08-667, July 2008, at 3).

                           In September, we initiated an audit to identify the strengths and weaknesses of PBGC’s
                           approach to executing the new policy and to determine the effectiveness of PBGC’s
                           plan to identify and mitigate key risks that could affect investment performance
                           or limit anticipated benefits. The investment policy is at a critical point in its
                           implementation. While many of the actions to implement the new policy will take



                       6   PBGC Office of inspector general
place in a matter of weeks or months, the effects on the PBGC investment portfolio will
last for years to come.

OIG Management Advisory on Flexiplace
Results in PBGC Telework Policy Revision

Based on an allegation of abuse, we found that a PBGC employee had been teleworking
full-time for nearly three years from her home more than 700 miles away from PBGC’s
Washington DC office. While the employee paid her own internet and telephone
expenses, PBGC paid travel expenses between the employee’s home and headquarters
several times a year. Based on a verbal agreement, management had approved the
special arrangement for the employee but had not documented the rationale for this
permanent telework situation. The Collective Bargaining Agreement in force at the
time permitted work from home for three days per pay period and did not address the
issue of a permanent flexiplace. OIG issued a Management Advisory identifying these
issues and made recommendations, including a recommendation that management
conduct a review to determine whether additional policy was needed to address the
situation of permanent flexiplace. As a result of the investigation and the accompanying
management advisory memorandum, PBGC issued for comment a comprehensive
telework directive that provides for a ” telework alternative worksite exception” that
must be justified in writing and reviewed and approved by management outside the
requesting department.

OIG Member of PBGC Internal Control Committee

The Assistant Inspector General for Investigations (AIGI) serves as a non-voting
member of the PBGC Internal Control Committee. This committee is responsible for
oversight and accountability regarding PBGC internal controls over financial reporting
and operations consistent with the Standards for Internal Control for the Federal                   The Stewardship
Government (GAO Green Book), OMB Circular A-123, and Federal Managers’ Financial
Integrity Act requirements.                                                                       Challenge focuses on

                                                                                                  financial management

2. Stewardship                                                                                      and safeguarding

                                                                                                   entrusted resources.
OIG’s work in the “Stewardship” area focuses primarily on PBGC’s overall financial
management and its stewardship of entrusted resources; specific activities include
preventing fraud, detecting improper payments, protecting participant data, and
safeguarding plan assets close to plan termination.

PBGC’s strategic plan outlines the “Stewardship” goal of exercising effective and efficient
stewardship of PBGC resources. OIG shares this goal and dedicates a large proportion of
resources to this challenge. Specifically, during the past six months we have:

  •	 provided oversight to the audit of PBGC’s financial statements.
  • assisted PBGC in developing audit follow-up procedures that better define the
    relative roles and responsibilities of PBGC management and of OIG.




                            Semiannual Report Of The Inspector General—September 2008         7
                              •	 investigated matters that threatened PBGC resources, with results including
                                 prosecution of a theft of benefits, assistance to PBGC in recovering a misdirected
                                 premium refund check, and identification of fraudulent internal and external
                                 activity related to pension benefit processing.


                            Audit of the Pension Benefit Guaranty Corporation’s
                            Fiscal Year 2008 and 2007 Financial Statements
                            (FA-0049)
The financial statement

 audit was a primary        Financial audits provide reasonable assurance as to whether the agency’s financial
                            statements are presented fairly in all material respects. Other objectives of financial
   focus this period.       statement audits are assessments of the internal controls over transaction processing
                            for accurate financial reporting and assessment of compliance with applicable laws
                            and regulations. As required by the Government Corporation Control Act of 1945,
                            PBGC prepared comparative consolidated financial statements for the 2008 and 2007
                            fiscal years in accordance with the Office of Management and Budget (OMB) Circular
                            A-136, Financial Reporting Requirements, and subjected them to audit. The Chief
                            Financial Officers Act of 1990 (CFO Act), as amended requires OIG, or an independent
                            external auditor selected by the Inspector General, to audit PBGC financial statements.
                            In accordance with the Inspector General Act, the OIG contracted with Clifton
                            Gunderson, LLP to conduct the annual audit of PBGC’s financial statements. The audit
                            is to be conducted in accordance with Government Auditing Standards issued by the
                            Comptroller General of the United States; OMB Bulletin No. 07-04, Audit Requirements
                            for Federal Financial Statements, amended; and applicable sections of the U. S. GAO/
                            PCIE Audit Manual.

                            As of the date of this report, the audit is in progress.

                            OIG Assists PBGC in Developing New Audit Follow-up Guidance

                            OIG participated in a working group charged with revising PBGC’s process for
                            following up on outstanding OIG and GAO audit recommendations, communicating
                            the status of corrective action, and improving the audit resolution process. Highlights
                            of the PBGC directive issued August 26, 2008 include:

                              •	 designation of the PBGC Deputy Director for Operations as the audit follow-up
                                 official.
                              •	 an explicit statement of PBGC management support for OIG audits, as well as
                                 management’s expectation that PBGC employees and contractors will cooperate
                                 fully with OIG audits.
                              •	 a revised audit follow-up process intended to promote accountability.




                        8   PBGC Office of inspector general
Daughter Received Benefits of Participant Missing Since 1993

The daughter of a man missing since 1993 took action to receive her father’s PBGC
benefit payments totaling at least $31,140 and then spent the money. We initiated
our investigation after receiving information from law enforcement officials in
Pennsylvania that a participant who was receiving benefits from PBGC had been
reported as a missing person in 1993, and foul play was suspected. Records obtained
by Pennsylvania law enforcement officials reflected that the daughter was receiving
her missing father’s benefit from PBGC. These records were obtained during the
execution of a search warrant issued pursuant to another case; the daughter was
subsequently convicted by a jury of first degree murder and is awaiting sentencing.

Actuary Misrepresented Professional Status to Government
                                                                                                Private sector actuary
A private sector individual falsely claimed to be an Enrolled Actuary and certified         falsely claimed enrolled
official documents attesting to the value and sufficiency of pension plan assets and
the accuracy of pension benefit liabilities. An Enrolled Actuary must fulfill certain                  status.
knowledge and experience requirements and satisfy the standards and qualifications
as set forth in the regulations of the Joint Board for the Enrollment of Actuaries (the
EA Board). Based on information received from the EA Board, we investigated an
individual who had made numerous certifications to PBGC, signing as an Enrolled
Actuary, as far back as 1998. We found that the EA Board had placed the actuary in
an inactive status in 1999 and subsequently terminated his professional certification
because he failed to meet the EA Board’s requirements.

The individual we investigated had signed Schedules B of the Form 5500. The integrity
of the actuarial calculations supporting these schedules is critical because PBGC uses
Schedules B to evaluate whether pension plans meet the legal criteria for a distress
termination and to estimate PBGC’s claims for unfunded benefit liability and unfunded
plan contributions in the event of a plan termination. The individual had also certified
PBGC Schedules EA-S as an enrolled actuary. The Schedule EA-S is required for
standard terminations, containing information relating to the fair market value of the
pension plan’s assets and the present value of plan benefits.

OIG issued a Management Advisory notifying PBGC management of the individual’s
fraudulent activity and identifying weaknesses and risks relating to PBGC assets. We
suggested that PBGC identify all filings from this individual and decide on further
action, and verify the eligibility of actuarial certifiers by comparing their names to an
official source. In response, PBGC has obtained the list of enrolled actuaries from the
EA Board and is planning to add verification of current status to the review steps for
the sample of standard terminations selected for audit.

We will continue to follow-up with PBGC to address the impact of the actuary’s
fraudulent certifications, in particular on distress termination filings.




                             Semiannual Report Of The Inspector General—September 2008      9
                          Recovery of Pension Premium Refund

                          When PBGC mailed a $24,088.64 refund check to an incorrect address and the check
                          was deposited by the recipient, OIG identified the company to which the refund
                          had been misdirected and confirmed that the check had been cashed in error. The
                          company that received the erroneous check refunded the full amount to PBGC, who
                          redirected the refund to the appropriate recipient. This example of assistance to the
                          Corporation demonstrates another way that OIG supports PBGC in its day-to-day
                          operations.

                          Employee Forged Supervisor’s Signature

                          A PBGC employee forged his supervisor’s signature on a Source Document Audit and
Forgery of supervisor’s   scanned the resulting document into an official electronic file. Because PBGC takes
signature was referred    in numerous plans that do not have complete information necessary to calculate
                          accurately employees’ pension benefits, PBGC has to research or gather the required
to PBGC management.       data through another means. This is known as the Source Document Audit, an
                          important component of the benefit determination process.

                           We investigated a complaint from a PBGC supervisor that someone had forged her
                          signature on a Source Document Audit - indicating the audit had been reviewed
                          and approved - and scanned the document into the e-file. The supervisor said that
                          no one had been authorized to sign her name on this document. Our investigation
                          determined that the employee who conducted the Source Document Audit and
                          prepared the report forged the supervisor’s signature. Such misconduct violates the
                          Standards of Ethical Conduct for Employees of the Executive Branch. Our finding was
                          referred to PBGC management for disciplinary and corrective action.


                          3.	     PBGC’s Business Model
                          PBGC’s business environment is constantly changing. As noted above, PBGC is in the
                          process of implementing a new investment policy. PBGC is also working to improve
                          its information security program and make decisions about updating old business
                          systems.

                          Although it is regularly called upon to deal with very large and sophisticated corporate
                          players, PBGC is a relatively small Federal entity charged with the mission of protecting
                          the retirement income of nearly 44 million American workers. PBGC is challenged to
                          adapt its business model to a constantly changing environment — to have the right
                          staff and resources in the right place at the right time. In helping PBGC respond to the
                          ”Business Model” challenge, OIG conducts work to evaluate PBGC programs and make
                          recommendations to improve effectiveness and efficiency.




                     10   PBGC Office of inspector general
PBGC’s Multiemployer Program

PBGC currently insures about 1,500 multiemployer plans. Those plans provide or
promise benefits to roughly 10 million participants or their beneficiaries. As of
September 30, 2008, the Corporation reported that 90 multiemployer plans need, or
                                                                                              Ongoing OIG work
will need at some time in the future, financial assistance from PBGC to pay guaranteed
benefits and plan administrative expenses. Each year, PBGC has been providing             addressed high-risk
increased financial assistance to insolvent plans to pay their benefits. The present
                                                                                          multiemployer plans.
value of non-recoverable future financial assistance for the 90 plans is $1.8 billion.

Based on our series of multiemployer audits, OIG has developed a variety of analytical
procedures to evaluate administrative costs of terminated multiemployer plans.
We are also consulting with Department of Labor (DOL) officials with ERISA Title I
responsibility for these plans.

Ongoing Audit. As part of our ongoing series of audits addressing issues in the
multiemployer program, we initiated a review of a terminated, but not yet insolvent,
multiemployer plan located in the Midwest.




                            Semiannual Report Of The Inspector General—September 2008    11
                                                                Comparison of Administrative Expenses
                                                        Under Review Plan versus All Midwest Multiemployer Plans
                                      90%

                                               79.74%
                                      80%
                                                                       74.80%                70.56%
                                      70%
                                                                                                                      60.00%
                                      60%




                            Percentages
                                      50%


                                      40%


                                      30%
                                                    20.21%                   18.08%                 20.05%                     19.24%
                                      20%


                                      10%


                                          0%

                                                  2003                    2004                   2005                    2006
                                                                 Under Review                         Midwest Plans




                             This plan showed disproportionately high administrative costs in relation to the
                             benefits paid. That is, for every dollar of pension benefits paid, administrative
                             costs totaled about 60 cents. We are examining the plan’s administrative costs,
                             primarily consisting of legal, accounting, investment management, actuarial and
                             other administrative and professional fees. Further, because this pension plan is
                             administered in concert with four other employee benefit plans, we are examining
                             whether professional fees were properly allocated and paid. During the course of our
                             audit, we have consulted with DOL’s Employee Benefits Security Administration (EBSA)
                             and will continue to do so as needed. We anticipate issuing a report on the results of
                             our audit at the completion of our field work.

PBGC OIG coordinated         Coordination with DOL’s OIG and EBSA. OIG’s ongoing review of a large
                             multiemployer pension plan requires us to coordinate with the DOL OIG and EBSA.
with DOL OIG and EBSA.
                             Prior to initiating our cross-agency work, we shared our preliminary observations
                             with PBGC and DOL officials. Among the issues we discussed were (1) this one
                             plan is responsible for a significant amount of PBGC’s total annual payout for the
                             multiemployer program and (2) the plan’s administrative costs are disproportionate to
                             those of other similar plans. PBGC and DOL officials agreed that additional review of
                             this plan is needed. As a result, we are continuing our coordinated review of this high-
                             risk multiemployer plan and anticipate reporting our results in a future semiannual
                             report.

                             PBGC’s Mass Transit and Subsidized Parking Programs
                             (08-8/PA-0045)

                             Our audit to determine the adequacy of PBGC’s controls over the mass transit and
                             subsidized parking programs showed that PBGC’s internal controls were generally
                             adequate, although they could be further improved. Because GAO had reported
                             numerous instances of fraud and abuse of these programs in other Federal agencies,
                             the councils of Inspectors General encouraged the OIG community to examine the
                             mass transit programs for which they had oversight. We initiated our audit in January
                             2008, and made recommendations to improve employee exit procedures so benefits


                       12    PBGC Office of inspector general
are not paid after separation, guard against employee eligibility for and receipt of
duplicate benefits, and enhance separation of duties. Our audit also examined the
role of parking in these programs and included benchmarking with 9 other Federal
agencies. PBGC management agreed to implement our recommendations.


4.	    Information Technology
                                                                                               PBGC is making
PBGC’s mission of protecting and providing pension plan retirement benefits for
over 44 million Americans relies heavily on the integrity and security of the PBGC        progress in addressing
information systems network. The confidentiality, completeness, accuracy, and
                                                                                           information security.
availability of information for pension benefits are key elements. Information security
has been reported as a significant deficiency in the internal controls report issued as
part of PBGC’s annual financial statement audit. Although PBGC has made progress in
this area, information security improvements are still needed. We continue to perform
work to assist the Corporation in meeting the challenge of protecting the integrity and
privacy of pension plan participants’ information.

Continuity of Operations Plan (COOP) & Contingency Planning

PBGC continues to improve its emergency preparedness planning and execution.
The Facilities and Services Department leads a working group of representatives
from the major business areas within the Corporation, including the OIG. In FY 2008,
PBGC completed a major expansion of its business recovery focus; by developing
contingency and disaster recovery processes, PBGC went beyond the minimal
requirements for an effective COOP. Additionally, an improved testing and exercise
plan is to be implemented in FY 2009 with the goal of obtaining valuable feedback
from business system owners. We will continue to support PBGC by monitoring and
providing feedback on its COOP testing for recovery of operations in the event of a
disaster or emergency situation.

Federal Information Security Management Act (FISMA) Report

Over the past years, PBGC has focused on improving the effectiveness of its security
program and reducing the associated risks to the business operations. OIG has aided
PBGC in this endeavor, in part, by conducting security reviews and other audits and
evaluations as required by FISMA and as reported to OMB. During FY 2008, PBGC
continued to take steps to identify security controls required to protect its assets
and information, and further improve its security program. Recent events have
heightened the focus on security, especially as related to personally identifiable
information and privacy issues. PBGC has taken these issues seriously and has
responded positively to OMB requirements by implementing policy and processes to
address the security of sensitive information.

Various issues with information security have been reported over the past years
in OIG audits and in the audits of PBGC’s annual financial statements. The current
PBGC leadership, and in particular the Chief Information Officer, has promoted a



                            Semiannual Report Of The Inspector General—September 2008     13
                           focused effort to correct these outstanding issues through the development and
                           implementation of a comprehensive information assurance program. While this effort
                           will take time, management has developed a well-defined plan to address security
                           issues. In addition, OIG will continue to perform independent audits and evaluations
                           to assist PBGC in improving its security program.


                           5. Procurement and Contracting

                           PBGC relies heavily on the services of contractors to carry out its operations, a factor
                           that makes procurement and contracting a significant PBGC activity. In its FY 2009
                           Congressional budget submission, PBGC reported spending about two-thirds of its
                           annual budget through contracts. When base and option years are considered, total
                           obligations for PBGC’s active contracts are $831 million, of which $312 million was
                           actually obligated during FY 2008. In addition, between 2000 and 2007, the dollar
                           value of PBGC’s contracting activity more than doubled. This trend and volume of
                           expenditures makes contract management a major challenge for PBGC.

                           OIG continues to devote a significant portion of its resources to audits and reviews
                           of PBGC’s procurement and contracting activities, and to consultations and fraud
                           briefings with procurement staff. During the past six months, we issued audit reports
                           addressing contracts totaling more than $14 million. Our audit efforts determined,
                           among other things, whether billings were reasonable, supported and consistent
                           with the contracts’ terms. We also made recommendations for improvements to
                           PBGC’s procurement process. Our criminal investigators conducted six fraud briefings,
                           coordinated with the Procurement Department to implement a new regulation
                           requiring contractors to advertise the OIG’s Hotline, and issued an investigative report
                           regarding the improper commitment of PBGC funds.
Contract management

is a major challenge for   Three Agreed-Upon Procedures Contract Audits
                           (08-11/CA-0047, 08-12/CA-0050, 08-13/CA-0046)
        PBGC.
                           OIG often uses Independent Public Accountants (IPAs) to review contractor invoices
                           submitted to PBGC. During this semiannual period, IPAs applied agreed-upon
                           procedures designed to assist OIG in evaluating whether costs incurred by three
                           PBGC contractors were allowable, reasonable, supported and consistent with
                           contractual provisions. Payment on the contracts reviewed totaled nearly $7.5
                           million and the time period covered was October 1, 2005 through September 30,
                           2007. For each of the contractors reviewed, we issued reports detailing our findings
                           and making recommendations for improvement and recovery of unsupported costs.
                           Questioned costs totaled $248,514. The IPAs considered the contractors’ comments
                           in formulating audit conclusions. In addition, the IPAs issued management letters
                           including observations about PBGC internal controls and operations and making
                           recommendations as appropriate. Following are some of the types of issues identified:




                      14   PBGC Office of inspector general
Qualifications. Contract labor is a major component of PBGC operations. As part of
providing hourly labor, contractors agree to provide employees who meet minimum
levels of education and experience as specified in their contracts. However, our
reviews of three PBGC contractors showed that 7 of 25 contract employees reviewed
did not meet the minimum experience requirements for the position filled and 2 of
the 25 reviewed did not have the minimum required education. That is, contractors
furnished PBGC with contract employees that had less experience or education than
required; nevertheless, the contractors billed PBGC and PBGC paid as if the contract
employees had the higher levels of experience and education actually mandated by
the contract. Questioned costs related to the issue of contract employee qualifications
totaled $226,988.

The following examples illustrate the shortfall between contract requirements and the
qualifications of contract staff provided:

 •	 Lack of Required Experience. PBGC entered into a labor-hour contract to provide
                                                                                                 Some contract
    technical support for its Information Systems Security Program. However,
    three of the five employees provided by the contractor did not have the levels             employees lacked
    of experience specified for the labor categories under which they were billed.
                                                                                               required education
    For example, PBGC paid the contractor for a subject matter expert, based on
    that individual having at least 8 years total experience with 5 years of specific          and/or experience.
    technical experience. However, the individual’s resume showed only two years
    total experience and no specialized experience at all. For the three contractors we
    audited, seven of 25 employees tested lacked required experience.


 •	 Lack of Required Education. PBGC’s labor-hour contract for services to improve
    its corporate data layer called for a program manager with a Master’s degree or 15
    years equivalent industry experience. The contractor was paid based on providing
    an employee with those qualifications. However, the contract program manager’s
    resume showed only a Bachelor’s degree and 13 years experience. Our review
    identified a total of two contract employees who lacked the required education, of
    25 tested.


The IPAs issued management letters detailing potential improvements and making
recommendations for specific actions that PBGC can take to improve contractor
compliance with minimum requirements. While contractors are responsible for
ensuring that the personnel furnished have all the necessary experience and
education specified in the contract, PBGC should press for improvement, in part
because the use of non-qualified personnel on a contract may result in performance
that is less than what PBGC paid for. Further, the use of unqualified personnel may
provide the contractor an unfair competitive advantage over other potential bidders
that propose only personnel who meet or exceed contract requirements. Over time,
unfair competitive advantages can erode competition, a situation that is contrary to
the best interests of PBGC and the Federal government.




                            Semiannual Report Of The Inspector General—September 2008     15
                            Timekeeping. Because the number of hours worked forms the basis of payment to
                            the contractor, timekeeping is a critical function in the administration of labor-hour
                            contracts. For two of the three labor-hour contracts we audited, we identified issues
                            with the integrity of this process. For example:

                              •	 Timesheet Changes. For one contractor, our review disclosed that, of 153
                                 timesheets tested, 61 had changes made with correction fluid. None of the
                                 individual changes was initialed by the employee or supervisor or included any
                                 explanation for the change. Alterations to timesheets without accompanying
                                 approvals or explanations call into question the accuracy of the time being
     The integrity
                                 reported and billed.
    of contractors’

timekeeping is critical.      •	 Unsupported Time. For a different contractor, our audit identified discrepancies
                                 between the manual sign-in/out sheets and PBGC’s electronic building access
                                 records for the contract employee who was working as on-site program manager.
                                 For example, the manual sign in record for a particular day showed an arrival time
                                 of 9:00 a.m., while the electronic building access records for the same day reflected
                                 arrival at 10:47 a.m. Similar situations occurred a total of 36 times over a two
                                 month period. We questioned $21,164 related to this issue.


                                For this contractor, our management letter addressed the actions of the PBGC
                                Contracting Officer’s Technical Representative (COTR) who had noted that the on-
                                site program manager described above was not on-site during some of the hours
                                indicated by the sign-in sheets. Although the COTR had information indicating
                                that the on-site program manager did not work some of the hours for which the
                                contractor billed and received payment from PBGC, the PBGC employee did not
                                report the issue to the Contracting Officer or to OIG. Further, the PBGC COTR did
                                not require the contractor to adjust its billing for the excessive hours. The IPAs’
                                management letter recommendations to PBGC included the need to re-emphasize
                                the requirement to report potential fraud, waste and abuse promptly to OIG.


                            The three audit reports and associated management letters also included other
                            issues affecting integrity in contract management, such as the need for timely audit
                            resolution, an apparent conflict of interest, and the need for a corrective action plan.


                            Incurred Cost Audit of PBGC Contractor
                            (2008-9/CA-0054)

                            The Defense Contract Audit Agency (DCAA) has audit cognizance over some of the
                            large contractors who do business with PBGC. OIG supported DCAA’s audit of a
                            PBGC contractor’s FY 2006 certified final incurred cost proposal and related books
                            and records and applied the audit results to four PBGC contracts. Payments on these
                            contracts totaled $6,848,034 for the time period April 1, 2005 through March 31, 2006.
                            As a result of DCAA’s work, we issued a report that questioned $97,581 in indirect
                            costs, primarily due to excessive executive compensation and associated fringe costs.



                       16   PBGC Office of inspector general
Items questioned by DCAA included intercompany costs for meetings held at Pebble
Beach Resort, travel costs for events including the Virginia Gold Cup horse races and
holiday parties, and external training which included costs for a “meet and greet”
reception. Because the contractor did not agree with the questioned amount and the
Defense Contract Management Agency (DCMA) has cognizance over this contractor’s
indirect rates, the DCMA Administrative Contracting Officer will review and resolve the
questioned costs. When DCMA resolves all questioned costs, DCAA will calculate and
distribute final indirect cost rates applicable to all contracts of this contractor.      PBGC employee exceeded
Unauthorized Contract Commitment                                                           her contract authority.

While investigating another matter, we reviewed a PBGC employee’s actions in
contracting with a vendor for professional photography services. The investigation
found that the employee exceeded her authority when making an unauthorized
commitment of PBGC funds without receiving management’s approval. The findings of
the investigation were referred to PBGC management and the employee received an
official reprimand.

Hotline Posters: New Rules for Federal Contractors

An amendment to the Federal Acquisition Regulations (FAR) requires certain
contractors to either (1) implement a mechanism for employees to report suspected
wrongdoing or (2) prominently display the agency’s OIG Hotline posters at contract
performance sites and on any website maintained for employees. As part of OIG’s
Hotline initiative, the Office of Investigations worked with PBGC’s Procurement
Department to ensure that applicable newly-awarded contracts contain provisions to
notify the contractors of this new responsibility to have their own Hotline or publicly
advertise the PBGC OIG’s Hotline. Because
we anticipate that the new regulation will
increase demand for our Hotline posters, we
are redesigning them to facilitate printing in a
standard paper size for easier and more cost-
effective reproduction.




                            Semiannual Report Of The Inspector General—September 2008      17
                           Other OIG Reporting
                           Access to Information

                           Under the Inspector General Act, the Inspector General is to have unfettered access
  Inspector General        to all agency records, information, or assistance when engaged in an investigation
                           or audit. Whenever access to requested records, information, or assistance is
access to information
                           unreasonably refused or not provided, the Inspector General must promptly report the
and assistance was not     denial to the agency head.
      restricted.
                           During this six month reporting period, the Inspector General’s access to information
                           and assistance was not restricted.

                           Management Decisions

                           The Inspector General is required to report the following about management decisions
                           on audit reports that occurred during this six-month period:

                            • There are twelve audit reports for which management decisions are pending, four
                              of which relate to reports issued this period (see page 23).
                            • There were no significant revised management decisions.
                            • There were no management decisions with which the Inspector General
                              disagreed.




                      18   PBGC Office of inspector general
Other Office of Inspector
General Activities
Review of Proposed Statutory and Regulatory Changes
Statutes

A major responsibility of the OIG under the Inspector General Act is to independently
review PBGC-proposed changes to laws and regulations. ERISA was amended in
August 2006 by the Pension Protection Act of 2006 (PPA) to provide simplicity,
flexibility, accuracy and stability in the defined benefit pension insurance program that
PBGC administers; there were no significant PBGC statutory proposals this period.

Regulations

PBGC continues in a major effort to streamline its regulations and to improve
administration of the pension insurance program, with a focus on making pension-
related information more accurate, complete and transparent. Its recent proposed
regulations were required to implement the PPA’s amendments relating to benefits
that PBGC will pay in the event of an “unpredictable contingent event,” such as a plant
shut-down, and limitations on guaranteed benefits. We reviewed, provided written
comments, and had substantive conversations with the drafters of these proposed
rules.                                                                                       Inspector General Act

                                                                                            was amended to increase
Inspector General Reform Act of 2008
                                                                                                 independence.
On the eve of the Inspector General Act’s 30th anniversary, Congress passed long-
awaited amendments to the Act. The Legislative Committee of the IG councils worked
in particular with Congressman Cooper and Senator McCaskill to draft language and
include provisions important to IG independence. The Deputy IG worked with this
committee and helped draft the pay provisions for IGs at designated Federal entities
(DFEs), such as PBGC.

Among the amendments are provisions that either clarify or provide parity between
IGs at DFEs and those IGs who are Presidentially-appointed, Senate-confirmed.
Specific provisions of the Act:

  • clarify that DFE IGs are appointed without regard to political affiliation and based
    on demonstrated ability.
  • clarify that all IGs are to have independent legal counsel, and DFEs may obtain that
    counsel in various ways.
  • allow DFE IGs to apply for full statutory law enforcement (i.e., arrest authority).
  • extend the Program Fraud Civil Remedies Act to DFE IGs.


                             Semiannual Report Of The Inspector General—September 2008      19
                          The amendments also included provisions to amend the pay for all IGs, prohibit pay-
                          related bonuses, codify and combine the two IG councils into one unified council of
                          IGs, and codify the Integrity Committee that reviews allegations against IGs and the
                          most senior IG officials.


                          Assistance to Other Federal Entities
                          Planning for and Recruiting Senior OIG Employees

                          Our office assisted two other OIGs in assessing their needs before they began
                          recruiting for their Assistant Inspector General for Audits (AIGA) and Assistant
PBGC OIG provided         Inspector General for Investigations (AIGI) positions. That assistance included
                          discussions about the expected leadership roles and responsibilities within their
 assistance to the        respective OIGs and externally with their agencies, sharing and reviewing certain
                          personnel documents, and consulting about skills that might be needed. The PBGC
  accountability
                          AIGA and AIGI also participated as subject matter experts in the panels that evaluated
   community.             and rated the applicants.

                          District of Columbia US Attorney Office’s Prosecution

                          The PBGC OIG assisted the Fraud and Public Corruption section at the US Attorney’s
                          office in the District of Columbia this past summer in preparing for a criminal trial. The
                          OIG auditor, a former employee of the US Attorney’s office, reviewed bank and credit
                          card records, prepared charts and graphs, worked with the Federal prosecutors and FBI
                          agents in advance of the trial, and testified for two days during the two week trial.

                          Other Activities
                          Various staff members participated in external and internal professional activities.
                          Examples include:

                            • The IG participates in the ECIE, a council of Inspectors General that promotes
                              collaboration on integrity, economy, and efficiency issues that transcend individual
                              agencies. In the Federal Financial Regulatory Inspectors General group, she joins
                              with other IGs to discuss common financial concerns and the work each is doing.
                            •	 The Assistant IG for Audits is a member of the Audit Committee of the Federal
                               Audit Executive Council (FAEC). FAEC’s purpose is to discuss and coordinate issues
                               affecting the Federal audit community, with special emphasis on audit policy and
                               operations of common interest.
                            • The Assistant IG for Investigations participates actively as a member of the National
                              Organization of Black Law Enforcement Executives.
                            • An OIG auditor was selected to participate in a nine-month PBGC structured
                              mentoring program in which she is paired with a more senior employee to identify
                              specific career and individual goals and and implement an action plan.



                     20   PBGC Office of inspector general
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the
Inspector General Act of 1978, as amended, to the specific pages in the report where
they are addressed.

Inspector General
Act Reference	         Reporting Requirements	                              Page
Section 4(a)(2)	       Review of legislation and regulations.	              19
Section 5(a)(1)	       Significant problems, abuses, and deficiencies.	     5-17
Section 5(a)(2)	       Recommendations with respect to significant 	        5-17
	                      problems, abuses, and deficiencies.	
Section 5(a)(3)	       Prior significant recommendations on which	          25
	                      corrective action has not been completed.	
Section 5(a)(4)	       Matters referred to prosecutorial authorities.	      9, 26
Section 5(a)(5)	       Summary of instances in which information 	          18
	                      was refused.	
Section 5(a)(6)	       List of audit reports by subject matter, showing 	 22
	                      dollar value of questioned costs and
	                      recommendations that funds be put to better use.	
Section 5(a)(7)	       Summary of each particularly significant report. 	   5-17
Section 5(a)(8)	       Statistical table showing number of reports and 	    22
	                      dollar value of questioned costs.	
Section 5(a)(9)	       Statistical table showing number of reports and 	    22
	                      dollar value of recommendations that funds be
	                      put to better use.	
Section 5(a)(10)	      Summary of each audit report issued before this 	    23-24
	                      reporting period for which no management
	                      decision was made by end of reporting period.	
Section 5(a)(11)	      Significant revised management decisions.	           18
Section 5(a)(12)	      Significant management decisions with which 	        18
	                      the Inspector General disagrees.	
		




                           Semiannual Report Of The Inspector General—September 2008   21
RESULTS OF REPORTS ISSUED*
For the Six-Month Period Ending September 30, 2008

                                                            Number             Questioned       Unsupported        Funds put to
                                                              of                     Costs        Costs**           Better Use
                                                            Reports
 A. For which no management decision had                         9              $2,017,099              $4,241                  $0
    been made by the commencement of the
    reporting period.
 B. Which were issued during the reporting
    period.
 Contract Audits
   Incurred Cost Audit, # 2008-9/CA-0054                                            $97,581
      (8/26/08)
   Incurrred Cost Audit, # 2008-11/CA-0047                                          $82,141
      (9/30/08)
   Incurred Cost Audit, # 2008-12/CA-0050                                         $114,225
      (9/30/08)
   Incurred Cost Audit, # 2008-13/CA-0046                                           $51,786           $21,164
      (9/30/08)
 Performance Audit
   PBGC’s Mass Transit and Subsidized Parking
     Programs, # 2008-8/PA-0045 (9/30/08)

 Total                                                           5                $345,733            $21,164                   $0

     Subtotal (Add A. & B.)                                     14              $2,362,832            $25,405                   $0

 C. For which a management decision was made                     2                $167,459                   $0                 $0
    during the reporting period.

     (i) dollar value of disallowed costs                        1                  $68,500                  $0                 $0


     (ii) dollar value of costs not disallowed                   1                  $98,959                  $0                 $0


 D. For which no management decision had been                   12              $2,195,373            $25,405                   $0
    made by the end of the reporting period.


 E.	 For which no management decision was made                   8              $1,849,640              $4,241                  $0
     within six months of issuance.



 * This statistical information is required by Section 5(a)(6), (8) and (9) of the Inspector General Act of 1978, as amended.
 **Unsupported costs are a subset of questioned costs.


                      22         PBGC Office of inspector general
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED


 Report and Summary                                     Reason For No Management Decision             Anticipated
                                                                                                      Management
                                                                                                      Decision
 Incurred Cost Audit, 2005-2005 (2/28/05)               Management recently met with the                  12/31/08
                                                        contractor and requested additional
                                                        information no later than 11/30/08
Questioned Costs of $21,084 because the contractor      for negotiation and settlement of the
billed the contract rate for subcontract costs rather   outstanding issues.
than the actual costs paid to the subcontractor as
required by the FAR.

 Incurred Cost Audit, 2005-2010 (2/28/05)               Management recently met with the                 12/31/08
                                                        contractor and requested information
                                                        no later than 11/30/08 for negotiation
Questioned Costs of $24,743 because the contractor      and settlement of the outstanding
billed the contract rate for subcontract costs rather   issues.
than the actual costs paid to the subcontractor as
required by the FAR.

 Examination of Contract Termination Proposal,          Management continues to consider the             6/30/2009
   2006-14/CA-0013 (9/27/06)                            noted issues and expects to address
                                                        this matter in the coming months.

Questioned Costs of $197,035 because the contractor
did not effectively manage its employees and allowed
idle time to be billed as a direct expense.

 Incurred Cost Audit, 2006-16/CA-0013 (9/27/06)         Management continues to consider the             6/30/2009
                                                        noted issues and expects to address
                                                        this matter in the coming months.
Questioned Costs of $146,628 for unallowable
costs associated with the use of the actual indirect
rates instead of the forward pricing indirect rates;
unallowable facility costs; and unsupported
purchased labor costs.

 Incurred Cost Audit, 2007-5/CA-0028 (3/19/07)          Management continues to consider the             6/30/2009
                                                        noted issues and expects to address
                                                        this matter in the coming months.
Questioned Costs of $475,896 because of
unsupported labor hour billings; questionable
experience and education of contract employees;
Improper billings; and erroneous time charges.




                            Semiannual Report Of The Inspector General—September 2008            23
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED


 Report and Summary                                   Reason For No Management Decision       Anticipated
                                                                                              Management
                                                                                              Decision
 Incurred Cost Audit, 2007-13/CA-0038-1               Management recently met with the           6/30/2009
    (9/27/07)                                         contractor and requested additional
                                                      information no later than 11/30/08
                                                      for negotiation and settlement of the
Questioned Costs of $533,081 because of               outstanding issues.
unsupported labor hour billings; unsigned
timesheets; erroneous and unapproved billings; and
unverified education and experience for contract
employees.

 Incurred Cost Audit, 2007-14/CA-0038-2               Management recently met with the           6/30/2009
    (9/27/07)                                         contractor and requested additional
                                                      information no later than 11/30/08
                                                      for negotiation and settlement of the
Questioned Costs of $113,782 because of               outstanding issues.
unsupported documentation for labor hour billings;
erroneous and unapproved billings; and unverified
education and experience for contract employees.

 Incurred Cost Audit, 2007/CA-0039 (9/27/07)          Management continues to consider the       6/30/2009
                                                      noted issues and expects to address
                                                      this matter in the coming months.
Questioned Costs of $337,391 related to unsupported
costs; erroneous and unapproved billings; and
unverified education and experience for contractor
employees.




                    24        PBGC Office of inspector general
SIGNIFICANT PROBLEMS, DEFICIENCIES AND RECOMMENDATIONS




Report Number, Report Title and         Number of              Significant Problems Summary of Significant
Date Issued                             Significant            and Deficiencies     Recommendations
                                        Recommendations
96-4/23093-2                                                   Significant            PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:            integration of its financial
Guaranty Corporation’s Fiscal                                  Integrating            management systems.
Year 1995 Financial Statements                   1*            Financial
03/13/1996                                                     Management
                                                               Systems
2003-3/23168-2                                                 Signficant             PBGC needs to complete its
Audit of the Pension Benefit                                   Deficiency:            efforts to fully implement and
Guaranty Corporation’s Fiscal Years                            Entity-Wide            enforce an effective information
2002 - 2001 Financial Statements                               Information            security program.
                                                 6*
01/30/2003                                                     Security Program
                                                               Planning &
                                                               Management

2008-1/FA-0034-1                                               Significant            PBGC needs to mitigate the
Audit of the Pension Benefit                                   Deficiency:            systemic issues related to
Guaranty Corporation’s Fiscal Years                            Access Contols         information access control.
2007 - 2006 Financial Statements
11/15/2007
      and
                                                11*
2008-2/FA-0034-2
Limited Disclosure Report on
Internal Controls - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007



This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.

  * Includes Significant Recommendations from previous semi-annual reports on which corrective action has not
     been completed.




                       Semiannual Report Of The Inspector General—September 2008           25
SUMMARY OF INVESTIGATIVE ACTIVITIES
For the Six-Month Period Ending September 30, 2008

Investigations
	   Pending beginning of period	                             17
	   Opened	                                                   8
	   Closed	                                                   8
	   Pending end of period	                                   17
Complaints*
	  Pending beginning of period	                               9
	  Opened	                                                   68
	  Closed	                                                   59
	  Pending end of period	                                    18
Financial Recoveries**
	   Theft of Funds Recovered	                               $0
	   Court Ordered Fines, Penalties, and Restitution	        $0
	U.S. Government Property Recovered	                   $24,089
Criminal Actions**
	   Arrests	                                                     0
	   Indictments	                                                 0
	   Convictions	                                                 0
Administrative Actions**
	  Terminations	                                                 0
	   Suspensions	                                                 0
	  Oral or Written Reprimand	                                    1
Referrals
	   For Prosecution:
		 Department of Justice	                                        2
		         Declined	                                             2
		 Various States’ Attorney Offices	                             2
		         Declined	                                             2
	   For Other Action:
		        PBGC Management for Corrective Action	                 4


     * Complaints include allegations received through the hotline operation and issues resulting from
       proactive investigative efforts.
     **Results reported for Financial Recoveries, Criminal and Administrative Actions include both open and
       closed cases.




                     26       PBGC Office of inspector general
If you want to report or discuss confidentially
any instance of misconduct, fraud, waste, abuse,
      or mismanagement, please contact the
          Office of Inspector General.

                  Telephone:
       The Inspector General’s HOTLINE
                1-800-303-9737

      For deaf or hard of hearing, dial:
       FRS (800)877-8339 and give the
    Hotline number to the relay operator.

                       Web:
 http://oig.pbgc.gov/investigation/details.html

                  Or Write:
    Pension Benefit Guaranty Corporation
         Office of Inspector General
                PO Box 34177
         Washington, DC 20043-4177
